Appendix B: Order Denying Petition for Rehearing

16

Case: 19-55371, 06/08/2020, ID: 11713788, DktEntry: 35, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 8 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

KELLY FRITHIOF SUNDBERG,

No.

19-55371

D.C. No.
3:16-cv-03127-WQH-AGS
Southern District of California,
San Diego

Petitioner-Appellant,
v.
HAROLD OREOL, Executive Director of
Patton State Hospital,

ORDER

Respondent-Appellee.
Before: BEA and BADE, Circuit Judges, and McCALLA,* District Judge.
The panel has voted to deny the petition for rehearing. Judge Bade has voted
to deny the petition for rehearing en banc, and Judges Bea and McCalla have so
recommended. The full court has been advised of the petition for rehearing en banc
and no judge has requested a vote on whether to rehear the matter en banc. Fed. R.
App. P. 35.
The petition for panel rehearing and the petition for rehearing en banc are
DENIED.

*

The Honorable Jon P. McCalla, United States District Judge for the
Western District of Tennessee, sitting by designation.
17

